                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                              Three Lafayette Centre
                                   1155 21st Street, NW, Washington, DC 20581
                                           Telephone: (202) 418-5110
                                            Facsimile: (202) 418-5522



   Office of the
Inspector General

                                         MEMORANDUM

     TO:             Gary Gensler
                     Chairman

     FROM:           A. Roy Lavik c;:::'~
                     Inspector General

     DATE:           November 14, 2012

     SUBJECT:        Inspector General's Assessment of The Most Serious Management
                     Challenges Facing the Commodity Futures Trading Commission (CFTC)

    Introduction

    The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
    performance information in a meaningful and useful format for Congress, the President, and the
    public. The RCA requires the Inspector General to summarize the "most serious" management
    and performance challenges facing the Agency and to assess the Agency's progress in addressing
    those challenges. This memorandum fulfills our duties under the RCA.

    In order to identify and describe the most serious management challenges, as well as the
    Agency's progress in addressing them, we relied on data contained in the CFTC financial
    statement audit and Annual Financial Report, representations by agency management, and our
    knowledge of industry trends and CFTC operations. Since Congress left the determination and
    threshold of what constitutes a most serious challenge to the discretion of the Inspector General,
    we applied the following definition in preparing this statement:

            Serious management challenges are mission critical areas or programs that have the
            potential for a perennial weakness or vulnerability that, without substantial management
            attention, would seriously impact Agency operations or strategic goals.

    This memorandum summarizes the results of the CFTC's current financial statement audit,
    describes the Agency's progress on last year's management challenges, and finally discusses the
    most serious management challenges that we have identified. For the second year in a row, we
    identified the most serious management challenges as:

        •   Efficient Deployment of Information Technology Resources

        •   Expanding Delivery of Customer Protection Resources and Consumer Education.
CFTC Financial Statement Audit Results

In accordance with the Accountability ofTax Dollars Act, CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector General.
The results of the Fiscal Year 2012 financial statement audit will be discussed in the Annual
Financial Report, and the financial statement audit is expected to result in an unqualified audit
opinion.

CFTC's Progress on Last Year's Challenges

Last year, we identified two of the most serious management challenges:

    •   Efficient Deployment of Information Technology Resources; and,

    •   Expanding Delivery of Customer Protection Resources and Consumer Education.

CFTC made progress on both challenges, but these challenges remain significant due to ongoing
implementation of the Dodd-Frank Act.

Most Serious Management Challenges for the coming year

The two issues that we identified last year will continue to challenge CFTC management in the
comtng year:

Efficient Deployment of Information Technology Resources

Last year we stated that over eighty percent of futures and options trading on the Chicago
Mercantile Exchange are transacted electronically. Since then electronic trading continued its
inexorable march and now over eighty-five percent of futures and options occurs electronically.

Last year we also expressed a concern that the agency's additional regulatory responsibilities
mandated by the Dodd-Frank Act would challenge management's ability to adequately regulate
the sizeable volume of swaps transactions--currently estimated to exceed $600 trillion in notional
value worldwide. On October 12, 2012 CFTC regulations required reporting on certain cleared
interest rate and credit default swaps transactions to Swap Data Repositories (SDR); the agency
has access to the data received by the SDRs. In order to properly analyze the data and scan for
trade anomalies the agency is in the process of specifying a standard data structure for swap
information submitted to SDRs and it is our understanding that the industry and the CFTC are
working though this new Dodd-Frank Act regulatory mandate. In January 2013 the CFTC will
receive real time swap transaction data, placing additional regulatory demand on the agency.
These challenges--electronic trading vs. declining on-exchange floor trading, and expanded
jurisdiction over the swaps market--remain on the horizon. Both require the efficient
deployment of effective information technology resources.




                                                2
In fiscal year 2012, Congress appropriated $55 million dollars in multi-year funds for
information technology to address the structural shift in derivatives trading regulated by the
agency. Under a period of government-wide fiscal austerity, we anticipate that the agency will
be challenged during the coming year to adequately conduct surveillance over these complex
markets, and equally challenged to sift through voluminous transaction data to thwart
wrongdoing. Reliance on technological solutions may be the agency's best tool to regulate the
formerly unregulated swaps markets, and time will reveal the agency's success in meeting this
challenge. We will monitor the agency's use of appropriated funds for information technology
in light of these challenges.

Expanding Delivery of Customer Protection Resources and Consumer Education

Section of748(g) of the Dodd-Frank Act added section 23(g) to the Commodity Exchange Act to
establish within the Treasury of the United States a revolving fund that will be available to the
Agency for the payment of whistleblower awards and education initiatives. The new Customer
Protection Fund is funded by civil monetary penalties collected through the Commission's
enforcement program that are not otherwise distributed to victims. At the end of FY20 12 the
Customer Protection Fund held over $100 million dollars, a significant increase from the $23
million dollar balance held last fiscal year. On October 25, 2012 the Office of the Inspector
General issued the financial statement audit of the Customer Protection Fund, which for the
second year in a row resulted in an unqualified opinion on the financial statements.

Increasingly, the Customer Protection Fund's expanding resources and commitments will
demand significant management attention. We are encouraged that the agency has staffed the
fund with new management, refined its policy for issuing awards to whistleblowers, and initiated
Consumer Education outreach programs. However the recent financial scandals at MF Global,
Inc., and Peregrine Financial, Inc., both generating reports of misappropriated customer funds,
underscore the need to strengthen consumer protections in the financial system through
consumer education. The increased commitment to whistleblower protection and customer
education will challenge the agency to effectively manage decisions regarding additions to and
awards from the Customer Protection Fund, to develop its organizational structure, and to
prudently manage significant additional resources.




                                                3
